February 11, 2010

VINCENT H. DEVITO. JR.
VICE PRESIDENT, CONTROLLER

SUBJECT: Audit Report – Fiscal Year 2009 Postal Service Financial Statements Audit
         – San Mateo Information Technology and Accounting Service Center
         (Report Number FT-AR-10-008)

This report presents the results of our audit of selected financial activities and
accounting records at the U.S. Postal Service Information Technology and Accounting
Service Center (IT/ASC) in San Mateo, CA, for the fiscal year (FY) ended September
30, 2009 (Project Number 09BM005FT000). The Postal Reorganization Act of 1970, as
amended, requires annual audits of the Postal Service’s financial statements. We
conducted this audit in support of the independent public accounting firm’s (IPA) overall
audit opinion on the Postal Service’s financial statements.1 This audit addresses
financial risk. See Appendix A for additional information about this audit.

Conclusion

During our audit of the San Mateo IT/ASC we noted:

   Financial accounting policies and procedures provided for an adequate internal
    control structure and complied with accounting principles generally accepted in the
    U.S.

   Accounting transactions at the San Mateo IT/ASC impacting the general ledger
    account balances were stated in accordance with accounting principles generally
    accepted in the U.S.

   General ledger account balances conformed to the general classification of accounts
    on a basis consistent with that of the previous year.

   The Postal Service complied with laws and regulations that have a direct and
    material effect on the financial statements taken as a whole.


1
 The IPA maintains overall responsibility for testing and reviewing significant San Mateo IT/ASC accounts and
processes. The U.S. Postal Service Office of Inspector General (OIG) coordinated audit work to assist the IPA to
ensure adequate coverage.
Fiscal Year 2009 Postal Service Financial Statements Audit –                                           FT-AR-10-008
 San Mateo Information Technology and Accounting Service Center


We did not propose any adjustments, but we did identify control deficiencies2 regarding
applications for refund of fees, products, and withdrawal of customer accounts; and
non-mail freight transportation payments. In addition, we continued to note deficiencies
in managing capital personal property. These items were not significant to the financial
statements and did not affect the overall adequacy of internal controls.

Applications for Refunds of Fees, Products, and Withdrawal of Customer
Accounts

San Mateo ASC personnel did not compare payee information from Postal Service (PS)
Forms 3533, Application for Refund of Fees, Products, and Withdrawal of Customer
Accounts, to supporting documentation to ensure payments were addressed to the
correct customers. This occurred because Standard Operating Procedures (SOP) did
not require this comparison. As a result, the Postal Service had no assurance that it
made payments to the correct customers. On September 8, 2009, we informed
management of the issue and they revised the SOPs to include review of supporting
documentation. Accordingly, we are not making any recommendations. From October
1, 2008, through August 31, 2009, the San Mateo ASC processed about 123,400
PS Forms 3533 valued at approximately $284 million. We consider the total amount as
non-monetary impact, assets at risk.3 See Appendix B for our detailed analysis of this
topic.

Non-Mail Freight Transportation Payments

San Mateo ASC personnel could not validate the total number of invoices and
associated dollar values of invoices transmitted by both of the non-mail freight
transportation vendors.4 The vendors did not provide both the number of invoices and
the values for the invoices included in the files they transmitted to enable San Mateo
ASC personnel to reconcile to the information in the National Accounting Oracle
Financials Application/Accounts Payable Excellence System (NAOFA-APEX). As a
result, the San Mateo ASC could not ensure the system interfaces were secure and the
system accurately received and processed the information. Further, validating that the
files the Postal Service received (which included non-mail freight transportation
invoices) were complete and accurate helps avoid inefficiencies and additional
processing costs created when there are omissions or wrong invoices. We notified
management of the issue on July 30, 2009. As a result, they contacted the vendors
and, as of August 25, 2009, both vendors began sending email notifications that

2
  A control deficiency exists when the design or operation of a control does not allow management or employees, in
the normal course of performing their assigned functions, to prevent, or detect and correct, misstatements on a timely
basis.
3
  Assets or accountable items that are at risk of loss because of inadequate internal controls See Appendix C for
non-monetary impacts.
4
  The Postal Service has contracts with C. H. Robinson Company (CHR) and Ryder Integrated Logistics Inc. (Ryder)
for global surface and air transportation services for non-mail freight. The contracts provide for carrier management,
shipment management, online tools and training, freight bill audit and payment, invoicing, claims management, and
standardized accessorial schedules and rates.




                                                          2
Fiscal Year 2009 Postal Service Financial Statements Audit –                                         FT-AR-10-008
 San Mateo Information Technology and Accounting Service Center


indicate both the total number and the total values of the invoices. Accordingly, we are
not making any recommendations. From October 1, 2008, through July 31, 2009, the
San Mateo ASC paid approximately $17.1 million for non-mail freight transportation
services. We consider the total amount as non-monetary impact, assets at risk.5 See
Appendix B for our detailed analysis of this topic.

Progress on Prior Year Recommendation

We followed up on recommendations concerning semiannual capital property reviews
from prior years’ financial statement audits at the San Mateo IT/ASC. The following
section describes the progress the Postal Service has made in addressing the
recommendations.

Since FY 2003, we have found that the field level controls over the accountability of
capital personal property have needed improvement.6 The Postal Service has
implemented actions in an effort to improve controls, including advising personnel to
conduct semiannual capital property record reviews,7 conducting the capital equipment
inventory process on a rolling 4-year cycle, aligning capital equipment inventory with
semiannual inventories, reexamining the semiannual inventory requirement, and
exploring opportunities to streamline the process for updating the property accounting
system.8 Management also communicated process changes9 and stated they planned
to update the policy requiring recording of asset transfers.10

During FY 2009, we tested 85 postal retail units11 for the existence of 566 capital
personal property items and tested 66 sites for semiannual capital property reviews and
found:

      We were unable to locate seven property items at two sites.

      Forty-one items assigned to 20 sites were on the sites’ property lists but had
       either been removed, replaced, transferred, disposed, or returned. Property
       officers did not ensure the transactions (removal, transfer, disposal) were
       properly recorded in the system. Some items were removed years earlier and

5
  Assets or accountable items that are at risk of loss because of inadequate internal controls See Appendix C for
non-monetary impacts.
6
  Fiscal Year 2003 Postal Service Financial Statements Audit – San Mateo Information Technology and Accounting
Service Center (Report Number FT-AR-04-008, dated February 24, 2004); Fiscal Year 2008 Postal Service Financial
Statements Audit – San Mateo Information Technology and Accounting Service Center (Report Number
FT-AR-09-004, dated December 9, 2008).
7
  Fiscal Year 2004 Postal Service Financial Statement Audit – San Mateo Information Technology and Accounting
Service Center (Report Number FT-AR-05-007, dated January 12, 2005).
8
  United States Postal Service Comments on Internal Control and Other Matters Year Ended September 30, 2007,
dated December 28, 2007.
9
  Fiscal Year 2008 Postal Service Financial Statements Audit – San Mateo Information Technology and Accounting
Service Center (Report Number FT–AR–09–004, dated December 9, 2008).
10
   Handbook AS-701, Material Management, dated June 2005.
11
   These units were randomly selected as part of our Fiscal Year 2009 Financial Installation Audits – Post Offices,
Stations, and Branches (Report Number FF-AR-10-045, dated December 14, 2009).




                                                         3
Fiscal Year 2009 Postal Service Financial Statements Audit –                                         FT-AR-10-008
 San Mateo Information Technology and Accounting Service Center


         management at one site could not determine the site to which they transferred
         an item. In some instances, the sites had not prepared the appropriate forms,
         and one site did not forward the forms for processing. Personnel at another site
         stated that, although items were removed in a 1999 district-wide purge of similar
         items, they were not automatically removed from the property listing.

      All sites required to perform semiannual reviews did so during FY 2009. We
       identified three sites that were required to do so in August 2008 but did not.12

In addition, although recorded in the Property and Equipment Accounting System
(PEAS) as being assigned to the locations for which they were responsible, property
officers stated that seven additional items were not assigned to any of the locations. As
a result, we could not test those items. Further, during our completeness test,13 we
identified four items at two sites that were not listed in the PEAS.

In FY 2009, management implemented a new policy that requires headquarters and
field units to conduct a review of randomly sampled capital property assets selected by
Headquarters, Accounting Policy, and transmitted by Supply Management twice a
year.14 Management further stated that semiannual capital property reviews are a
Sarbanes-Oxley requirement and instances of untimely reporting will be escalated for
further action.15

During the year, management also lowered the dollar threshold for property sampled as
part of the semiannual reviews so they now include capital assets of $3,000 and above.
However, two computer software items16 and the Point-Of-Service (POS) retail
terminals17 remain excluded from selection.

Because of management’s new policy and continuing effort to improve controls over
capital property and the reviews, we are not making any recommendations at this time.
We will evaluate the effectiveness of the new policy and control improvements as part of
our annual financial statement audit work.

Since we are not making any recommendations in this report, management chose not to
respond formally to this report.



12
   Semiannual reviews do not always validate all property items at the sites.
13
   Completeness testing involves a selection of source documentation which is subsequently traced through the
system to ensure the transaction was complete.
14
   The new policy was communicated in Postal Bulletin 22253, dated February 26, 2009, and included instructions
and guidelines for field and headquarters personnel regarding how to conduct the reviews.
15
   Postal Bulletin 22263 and 22264, dated July 16, 2009, and July 30, 2009, respectively.
16
   The two computer software items are for micro- and mini-computer systems and are not tangible for physical
inventory purposes.
17
   The Material Service Centers are working with Headquarters Accounting and Headquarters Retail on a process that
will allow the Postal Service to maintain accountability for the POS retail terminals while excluding them from the
semiannual reviews.




                                                         4
Fiscal Year 2009 Postal Service Financial Statements Audit –               FT-AR-10-008
 San Mateo Information Technology and Accounting Service Center


We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Lorie Nelson, director,
Financial Reporting, or me at (703) 248-2100.




John E. Cihota
Deputy Assistant Inspector General
 for Financial Accountability

Attachment

cc:    Joseph Corbett
       Susan M. Brownell
       Stephen J. Nickerson
       Jean D. Parris
       Steven R. Phelps
       Jack L. Meyer
       Sally K. Haring




                                                  5
Fiscal Year 2009 Postal Service Financial Statements Audit –                                        FT-AR-10-008
 San Mateo Information Technology and Accounting Service Center


                           APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

The San Mateo IT/ASC is one of three ASCs Postal Service-wide.18 It is a large,
centralized accounting and disbursement center responsible for accounts payable,19
centralized postage payments,20 capital personal property, motor vehicles, and supply
inventory.

We have issued separate financial statement audit reports for headquarters and the
Eagan and St. Louis IT/ASCs. Further, in addition to the overall opinion on the Postal
Service’s financial statements, the Board’s IPA — contracted to express an opinion on
the financial statements — issued a separate report on the Postal Service’s internal
controls and compliance with laws and regulations.21 The OIG will also issue a
separate report for the audit of the FY 2009 information system controls at the Eagan,
San Mateo, and St. Louis IT/ASCs and the Raleigh, NC, ITSC.

OBJECTIVES, SCOPE, AND METHODOLOGY

The objectives of the audit were to determine whether:22

    Financial accounting policies and procedures provide for an adequate internal
     control structure and comply with accounting principles generally accepted in the
     U.S.

    Accounting transactions at the San Mateo IT/ASC that impact the general ledger
     account balances for assets, liabilities, equity, income, and expenses of the Postal
     Service are fairly stated in accordance with accounting principles generally accepted
     in the U.S.

    General ledger account balances conform to the general classification of accounts of
     the Postal Service on a basis consistent with that of the previous year.

    The Postal Service complies with laws and regulations that have a material and
     direct effect on the financial statements as a whole.



18
   Other ASCs within IT/ASCs are located in Eagan, MN, and St. Louis, MO.
19
   Includes accounting for miscellaneous disbursements, commercial credit cards, relocation, and headquarters and
field payables.
20
   The Centralized Account Processing System is an electronic postage payment system that provides business
mailers a way to pay postage at multiple post offices through a centralized account.
21
   In addition to work performed by the IPA, these reports encompass work performed by the OIG at headquarters,
the three IT/ASCs, field sites, and the Raleigh, NC, Information Technology Service Center (ITSC).
22
   The IPA maintains overall responsibility for testing and reviewing significant St. Louis IT/ASC accounts and
processes. The OIG coordinated audit work to assist the IPA to ensure adequate coverage.




                                                        6
Fiscal Year 2009 Postal Service Financial Statements Audit –                      FT-AR-10-008
 San Mateo Information Technology and Accounting Service Center


As part of our audit, we assessed internal controls, tested transactions, and verified
account balances. We conducted this audit from November 2008 through February
2010 in accordance with the standards of the Public Company Accounting Oversight
Board (United States) (PCAOB) and the standards applicable to financial audits
contained in Government Auditing Standards issued by the Comptroller General of the
United States. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to limit audit risk to a low level that is, in our
professional judgment, appropriate for supporting the overall audit opinion on financial
statements. Those standards also require considering the results of previous
engagements and following up on known significant findings and recommendations that
directly relate to the objectives of the audit. An audit also includes obtaining a sufficient
understanding of internal controls to plan the audit and to determine the nature, timing,
and extent of audit procedures to be performed. We believe the evidence obtained
provides a reasonable basis for our conclusion and observation based on our audit
objective.

We supported the external auditors in obtaining reasonable assurance about whether
the financial statements were free of material misstatement (whether caused by error or
fraud). Absolute assurance is not attainable because of the nature of audit evidence
and the characteristics of fraud. Therefore, an audit conducted in accordance with
PCAOB and Government Auditing Standards may not detect a material misstatement.
However, the IPA and the OIG are responsible for ensuring that appropriate Postal
Service officials are aware of any significant deficiencies that come to our attention. We
discussed our observations and conclusions with management officials on
February 2, 2010.

We relied on computer-generated data from a number of Postal Service financial
systems, including the following:

 Accounting Data Mart                            Contract Authoring Management
 NAOFA-APEX                                       System
 Enterprise Imaging and Workflow                 PEAS
  System (eIWS)                                   Vehicle Management Accounting
 Material Distribution Inventory                  System
  Management System                               Centralized Accounts Processing
 eBuy                                             System
 Supplier Order Management System                Commercial Check Tracking System

We performed specific internal control and transaction tests to validate these systems’
data, to include tracing selected financial information to supporting source records. For
example, we verified that payments recorded in NAOFA-APEX were supported by
certified invoices and the amounts were properly applied to the appropriate general
ledger accounts.




                                                  7
    Fiscal Year 2009 Postal Service Financial Statements Audit –                         FT-AR-10-008
     San Mateo Information Technology and Accounting Service Center


    PRIOR AUDIT COVERAGE

                        Report             Final          Monetary
   Report Title         Number          Report Date        Impact               Report Results
Fiscal Year 2008     FT-AR-09-004        12/9/2008                $0    Management continued to take
Postal Service                                                          action on improving
Financial                                                               semiannual capital property
Statements Audit                                                        reviews and property
– San Mateo                                                             accountability. See the
Information                                                             Progress on Prior Years’
Technology and                                                          Recommendations section of
Accounting                                                              this report.
Service Center
Fiscal Year 2007     FT-AR-08-009         3/20/2008           $82,874   The Postal Service did not
Postal Service                                                          always pay invoiced amounts
Financial                                                               through eIWS correctly. We
Statements Audit                                                        did not make
– San Mateo                                                             recommendations on the issue
Information                                                             because the Postal Service
Technology and                                                          took immediate corrective
Accounting                                                              action. In addition, San Mateo
Service Center                                                          IT/ASC personnel did not
                                                                        always manage accounts
                                                                        receivable for which it is
                                                                        responsible. We made one
                                                                        recommendation on which
                                                                        management took corrective
                                                                        action. Further, the Postal
                                                                        Service did not always make
                                                                        recurring service contract
                                                                        payments in a timely manner
                                                                        and did not perform
                                                                        semiannual capital property
                                                                        reviews at 31 of 75 sites. See
                                                                        the Progress on Prior Years’
                                                                        Recommendations section of
                                                                        this report.




                                                      8
    Fiscal Year 2009 Postal Service Financial Statements Audit –                          FT-AR-10-008
     San Mateo Information Technology and Accounting Service Center


                        Report             Final           Monetary
   Report Title        Number           Report Date         Impact                Report Results
Fiscal Year 2006     FT-AR-07-010        3/26/2007           $159,653   Personnel manually entered
Postal Service                                                          utility invoices into the eBuy
Financial                                                               system without proper review.
Statements Audit                                                        In addition, the Postal Service
– San Mateo                                                             calculated Prompt Payment
Information                                                             Act interest based on
Technology and                                                          transmission dates instead of
Accounting                                                              settlement dates.
Service Center                                                          Management implemented our
                                                                        recommendations, which are
                                                                        now closed. Semiannual
                                                                        capital property reviews were
                                                                        not performed at 51 of 80 sites.
                                                                        See the Progress on Prior
                                                                        Years’ Recommendations
                                                                        section of this report.
The Postal           CA-AR-09-002         2/18/2009       $41,916,714   The contracting officer relied
Service’s                                                               on annual post-performance
Certification                                                           invoice audits of the Defense
Process for Non-                                                        Contract Audit Agency (DCAA).
Mail Freight                                                            These audits did not — nor
Transportation                                                          were they intended to —
Invoices                                                                provide assurances that
                                                                        contractors are properly
                                                                        rendering services.
                                                                        Management agreed with the
                                                                        finding and recommendation
                                                                        and stated the issue was the
                                                                        result of a miscommunication
                                                                        regarding their reliance on
                                                                        DCAA audits to assure that
                                                                        contractors properly rendered
                                                                        services.




                                                      9
Fiscal Year 2009 Postal Service Financial Statements Audit –                                           FT-AR-10-008
 San Mateo Information Technology and Accounting Service Center


                                APPENDIX B: DETAILED ANALYSIS

Applications for Refunds of Fees, Products, and Withdrawal of Customer
Accounts

San Mateo ASC personnel did not compare payee information from PS Forms 3533 to
the supporting documentation to ensure payments were addressed to the correct
customers. This occurred because the San Mateo ASC’s SOPs23 did not require
comparison of the payees noted on forms to the supporting documentation. Best
practices require accounts payable transactions to be accurate.

Customers use PS Forms 3533 to apply for payments for refunds of fees, products, and
withdrawal of customer accounts. Customers submit the forms to the Postal Service,
where personnel review and approve. Once approved, personnel forward forms to the
Scanning and Imaging Center (SIC) which reviews them for specific items, including the
customer’s signature and that of either a witness or a certifying official, supporting
documentation, the correct version of the form,24 and valid barcodes. Once SIC
personnel determine the forms are complete, they scan them and the supporting
documents into eIWS. eIWS creates a case for each submitted form, which includes
the detailed information on the forms.

San Mateo ASC personnel compare eIWS case information to the forms to ensure it
matches. In accordance with the SOP for processing these forms, this includes
verifying that the forms included a customer’s signature, a Postal Service certifying
official’s signature, and a witness’s signature. It also includes verification of the refund
amounts and establishment of payables for the refund amounts. Although the
supporting documents (except for PS Forms 141225) included the customers’ names,
San Mateo ASC personnel did not compare the names of the customers noted on the
PS Forms 3533 to the supporting documents. The SOP did not require verification to
ensure that the customers on the forms were the same as those on the supporting
documentation.

Once the cases are verified and all errors, if any, are resolved, the cases are submitted
to NAOFA-APEX, where the payments are automatically processed. The payables are
then cleared.

Without comparison of the customer names on forms to the supporting documentation,
the Postal Service has no assurance that payments were made to the correct
customers. After we notified San Mateo ASC management, they revised the SOP on
September 11, 2009, to include comparison of PS Forms 3533 to the supporting

23
   Standard Operating Procedure, San Mateo Accounting Service Center – PS Form 3533 Refunds.
24
   The form must be dated August 2008 or later.
25
   Postal Service officials advised that refunds submitted with PS Forms 1412 as supporting documentation were
generally for small amounts and from small Postal Service facilities, and the total value of refunds supported by
PS Forms 1412 were minimal.




                                                         10
Fiscal Year 2009 Postal Service Financial Statements Audit –                                       FT-AR-10-008
 San Mateo Information Technology and Accounting Service Center


documentation to ensure the customer names on both were the same. Accordingly, we
are not making any recommendations. From October 1, 2008, through
August 31, 2009, the San Mateo ASC processed about 123,400 PS Forms 3533 valued
at approximately $284 million. We consider the $284 million as non-monetary impact,
assets at risk.26

Non-Mail Freight Transportation Payments

San Mateo ASC personnel could not validate the total number of invoices and
associated dollar values of invoices transmitted by both of the Postal Service’s non-mail
freight transportation vendors requesting payment. This occurred because the vendors
did not transmit reconciling information, including the numbers and values of invoices
transmitted. Best practices include reconciling data by comparing file totals to control
information.

The Postal Service entered into contracts with CHR and Ryder in FY 2006 for global
surface and air transportation services for non-mail freight. The contracts provide for
carrier management, shipment management, online tools and training, freight bill audit
and payment, invoicing, claims management, and standardized accessorial schedules
and rates.

After services are rendered, CHR or Ryder reviews the carrier’s charges and prepares
an invoice including its fees and the carrier’s fees to the Postal Service. CHR or Ryder
electronically transmits the files, which include the invoices, to the San Mateo ASC for
payment. The files are automatically uploaded to the NAOFA-APEX system which
reads the individual invoices and performs edit checks.27 San Mateo ASC employees
check the NAOFA-APEX system each business day to see whether or not CHR or
Ryder transmitted any files and whether or not there are errors that require correction.
If there are not any errors, no action is required and the transactions are processed. If
errors exist, San Mateo ASC personnel review those invoices and contact
Headquarters, Non-Mail Freight Transportation, for resolution. When the correct
information is established, San Mateo ASC employees make corrections directly into
the NAOFA-APEX system and resubmit the invoices for processing and payment.
Payments are made directly to the contractor, who then pays the carriers.

Because the vendors did not transmit both the number of invoices and the values for the
invoices included in the transmitted files, the SM ASC could not ensure the system’s
interfaces were secure and that it accurately received and processed the information.
Validating that the Postal Service received complete and accurate files, which included
non-mail freight transportation invoices, would help avoid inefficiencies and additional
processing costs created when there are omissions or inaccurate invoices.


26
  Assets or accountable items that are at risk of loss because of inadequate internal controls.
27
  Edit checks include ensuring finance and account numbers are valid, an amount was entered for each invoice, and
there are no duplicate invoices.




                                                       11
Fiscal Year 2009 Postal Service Financial Statements Audit –                  FT-AR-10-008
 San Mateo Information Technology and Accounting Service Center


We notified management of the issue on July 30, 2009. As a result, they contacted the
vendors and, as of August 25, 2009, both vendors began sending email notifications
that indicate both the total number and the total values of the invoices. From October 1,
2008, through July 31, 2009, the SM ASC paid approximately $17.1 million for non-mail
freight transportation services. We consider the total amount as non-monetary impact,
assets at risk.




                                                 12
Fiscal Year 2009 Postal Service Financial Statements Audit –                                             FT-AR-10-008
 San Mateo Information Technology and Accounting Service Center



                  APPENDIX C: MONETARY AND NON-MONETARY IMPACTS


                                              Non-Monetary Impacts

                    Finding                            Impact Category                         Amount
                 Applications for                                     28                      $284 million
                                                        Assets at risk
                Refunds of Fees,
                 Products, and
                  Withdrawal of
               Customer Accounts

                 Non-Mail Freight                        Assets at risk                      $17.1 million
                  Transportation
                    Payments
                                                             TOTAL                           $301.1 million




28
     Assets or accountable items that are at risk of loss because of inadequate internal controls.




                                                             13
